HHS/OIG, Audit - Audit of Overpayment Recoveries Pertaining to the Aid to Families With Dependent Children Program
Administered by the State of Alabama,(A-04-01-00008)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Overpayment Recoveries Pertaining to the Aid to Families With Dependent Children Program Administered
by the State of Alabama," (A-04-01-00008)
March 28, 2002
Complete
Text of Report is available in PDF format (660 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether the State had established systems and procedures to properly monitor,
report, identify, collect and write-off Aid to Families with Dependent Children (AFDC) overpayments; and to evaluate the
adequacy of the systems and procedures in place to assure that overpayments were processed accurately, timely, and in compliance
with Federal regulations.  The State's systems and procedures appeared adequate to assure that overpayments were processed
accurately, timely, and in compliance with Federal regulations.  However, for the period April 1, 1997 through March
31, 2001, the State included Temporary Assistance to Needy Families (TANF) overpayment recoveries totaling $77,742 in the
AFDC overpayment amount returned to the Administration for Children and Families (ACF).  The State should have retained
the Federal share of TANF overpayment recoveries for use in funding the TANF program.  This problem occurred because
of computer programming errors discovered in two of the States reporting systems.  We recommended that the State
correct its reporting systems and make an adjustment for the recoupments refunded to ACF in error.  State officials
agreed with our findings and recommendations.